AFFIDAVIT OF SERVICE

SUPREME COURT OF THE UNITED STATES

No. 21-5305
ee ee, X
ALEJANDRO ROSALES-GONZALEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
Sears erremnnmenennnneerenennsesonnenenrmerommvemeennrmnren sa xX

STATE OF NEW YORK )
COUNTY OF NEW YORK)

I, Melissa Pickett, being duly sworn according to law and being over the age of 18,
upon my oath depose and say that:

Iam retained by Counsel of Record for Amici Curiae.

That on the 18'" day of October, 2021, I served the within (Corrected) BRIEF OF
DRUG POLICY ALLIANCE, THE NATIONAL ASSOCIATION FOR THE
ADVANCEMENT OF COLORED PEOPLE, THE LAW ENFORCEMENT ACTION
PARTNERSHIP, THE INDEPENDENCE INSTITUTE, LIBERTAS INSTITUTE, AND
DUE PROCESS INSTITUTE AS AMICI CURIAE IN SUPPORT OF PETITIONER in the
above-captioned matter upon:

Conrad Benjamin Kahn

Federal Public Defender

Middle District of Florida

Attorneys for Petitioner

201 South Orange Avenue, Suite 300
Orlando, FL 32801

(407) 535-4415

conrad_kahn@fd.org

Brian H. Fletcher

Acting Solicitor General

United States Department of Justice
Attorneys for Respondents

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@usdoj.gov
by sending three copies of same, addressed to each individual respectively, and enclosed
in a properly addressed wrapper, through the United States Postal Service, by Express
Mail, postage prepaid. An electronic version was also served by email to each individual.

That on the same date as above, I sent to this Court forty copies and 1 un-bound
copy of the within (Corrected) BRIEF OF DRUG POLICY ALLIANCE, THE NATIONAL
ASSOCIATION FOR THE ADVANCEMENT OF COLORED PEOPLE, THE LAW
ENFORCEMENT ACTION PARTNERSHIP, THE INDEPENDENCE INSTITUTE,
LIBERTAS INSTITUTE, AND DUE PROCESS INSTITUTE AS AMICI CURIAE IN
SUPPORT OF PETITIONER through the United States Postal Service by Express Mail,
postage prepaid. In addition, the brief has been submitted through the Court’s electronic
filing system.

All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on this 18" day of October, 2021.

Melissa Pickett

Sworn to and subscribed before me this 18" day of October, 2021.

@Nar ‘ona Proxlo aby

MARIANA BRAYLOVSKIY

Notary Public State of New York
No. 01BR6004935

Qualified in Richmond County
Commission Expires March 30, 2022

#308182

g

COUNSEL PRESS
(800) 274-3321 + (800) 359-6859
‘www. counselpress.com
